           THE 2000 DOD FINANCIAL MANAGEMENT
                    IMPROVEMENT PLAN


Report No. D-2001-085                   March 19, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CEFMS                 Corps of Engineers Financial Management System
CFO                   Chief Financial Officers
DFAS                  Defense Finance and Accounting Service
FFMIA                 Federal Financial Management Improvement Act
JUMPS                 Joint Uniform Military Pay System
OMB                   Office of Management and Budget
SAS                   Statement on Auditing Standards
SLDCADA               Standard Labor Data Collection and Distribution Application
USD(C)                Under Secretary of Defense (Comptroller)
                       Office of the Inspector General, DoD
Report No. D-2001-085                                                  March 19, 2001
  (Project No. D2001FI-0018)

                     The 2000 DoD Financial Management
                              Improvement Plan

                               Executive Summary

Introduction. The Federal Financial Management Improvement Act of 1996 requires
DoD financial management systems to comply substantially with Federal financial
management system requirements, Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level. Since 1997, we have
reported, and DoD has acknowledged, that DoD financial management systems do not
substantially comply with the three requirements. As a result, DoD has prepared the
Financial Management Improvement Plan (the Plan), which is a strategic framework
that includes the Department’s financial management concept of operations for the
future. The Plan identifies the initiatives DoD is implementing to improve critical
financial systems and processes. Also, the Plan addresses critical finance and
accounting systems, critical program feeder systems, and legacy systems. The Plan
was submitted to Congress in January 2001 and provided to us on January 30, 2001.

Objectives. Our objectives were to perform an overall assessment of the Plan,
including compliance with the requirements of the National Defense Authorization Act
for FY 2000, and to determine whether the Plan had adequately identified the status of
financial management systems compliance. In addition, we reviewed the transition
from the 1999 Financial Management Improvement Plan.

Results. The Plan was a valid attempt to develop a strategic framework that includes
the Department’s financial management concept of operations and describes the manner
in which the Department intends to carry out financial management operations in the
future. However, the Plan is an evolving product that was prepared from a data call
rather than from information readily available to management, was not prepared in a
timely manner, and has yet to capture all required information. DoD did not fully
comply with the requirements for the Plan included in the National Defense
Authorization Act for FY 2000. Further, although the Plan showed cost estimates of
$3.7 billion for FY 2000 through FY 2003 to correct systems deficiencies and result in
systems that are compliant with the Federal Financial Management Improvement Act,
the amount is understated. As a result, the Plan was incomplete and did not ensure that
DoD will correct system deficiencies and result in an integrated financial management
system structure (finding A).

The DoD Components did not conduct proper or complete evaluations of critical
financial management systems reported as compliant with the Federal Financial
Management Improvement Act of 1996 in the Plan. DoD used incorrect or incomplete
criteria to perform the system evaluations for six systems listed as compliant. Also,
DoD did not maintain adequate documentation to support compliance evaluations for six
systems before reporting the systems as compliant. As a result, at least 12 of the 19
systems included in the Plan as compliant were either not Federal Financial
Management Improvement Act compliant or the compliance status was not supported
(finding B).

Summary of Recommendations. We recommend that for future Financial
Management Improvement Plans, the Under Secretary of Defense (Comptroller)
develop processes to map the flow of data from the transaction origination points to
presentation on the DoD Component and Agency-Wide financial statements; ensure all
the required information is included in the Plan; validate the amounts budgeted for the
Financial and Feeder Systems Compliance Process; and establish a senior steering
group to describe performance characteristics and training requirements, and validate
the number and types of the future financial management human capital requirements.
We also recommend that future Plans include details on the Defense Finance and
Accounting Service blueprint for progress, standardizing data elements, implementing
managerial cost accounting systems, and developing integrated budget formulation
systems.

We recommend that the Under Secretary of Defense (Comptroller) redesignate, for the
2001 Financial Management Improvement Plan, the compliance status of three systems
as noncompliant; five systems as not determined; and, require the Military Departments
and the Defense Finance and Accounting Service to review the system evaluations of
four systems. See the recommendations section of finding B for the list of specific
systems.

Management Comments. The Deputy Chief Financial Officer provided comments for
the Under Secretary of Defense (Comptroller). The Deputy stated that two draft report
recommendations, which pertained to changing the compliance status of systems in the
2000 Plan, have been overcome by events because the 2000 Plan was finalized and
published before the draft report was received. The Deputy also stated that it was the
responsibility of the DoD Components to determine the compliance status of their
systems. In addition, the Deputy stated that the Financial and Feeder Systems
Compliance Process, issued January 5, 2001, will improve the systems compliance
process and address our concerns. See finding B for a discussion of management
comments, and the Management Comments section of the report for the text of the
comments.

       Audit Response. We agree that the recommendations in the draft report have
been overcome by the issuance of the final 2000 Plan. However, we have revised the
systems compliance recommendations and they now apply to the preparation of the
2001 Plan. Although the DoD Components are responsible for determining the
compliance status of their systems, we believe the Under Secretary of Defense
(Comptroller) also has a responsibility to ensure the data it includes in the Plan are
complete, supported, and in compliance with governing statutes. The Financial and
Feeder Systems Compliance Process, if properly implemented, should help ensure that



                                           ii
the Plan is complete, supported, and in full compliance with governing statutes. We
added a finding (finding A) on the overall assessment of the 2000 Plan to the final
report and revised the system compliance recommendations. We request that the Under
Secretary of Defense (Comptroller) provide additional comments on the new and
revised recommendations by May 21, 2001.




                                        iii
Table of Contents

Executive Summary                                     i


Introduction
     Background                                       1
     Objectives                                       3

Findings
     A. Assessment of the DoD Financial Management
          Improvement Plan                            4
     B. Systems Compliance                           18

Appendixes
     A. Audit Process
         Scope and Methodology                       27
         Prior Coverage                              28
     B. Report Distribution                          29

Management Comments
     Deputy Chief Financial Officer                  31
Background
    This audit was conducted pursuant to the responsibility of the Inspector General,
    DoD, under the Federal Financial Management Improvement Act (FFMIA)
    of 1996 to assess the progress made toward substantial system compliance with
    applicable guidelines and standards. This report is the second in a series of
    audit reports related to the FY 2000 DoD Agency-Wide Financial Statements.
    The first report discussed the internal controls and compliance with laws and
    regulations for DoD. This report discusses the 1999 Financial Management
    Improvement Plan (the 1999 Plan) and the 2000 Financial Management
    Improvement Plan (the 2000 Plan) issued by DoD regarding efforts for
    improving financial management systems containing the data used to prepare the
    DoD Component and Agency-Wide financial statements.

    Responsibility for Financial Management Systems. The Military
    Departments and Defense agencies are responsible for implementing,
    modifying, and maintaining the feeder systems that supply source-level data to
    the finance and accounting systems. The Defense Finance and Accounting
    Service (DFAS), under the authority of the Under Secretary of Defense
    (Comptroller) [USD(C)], is responsible for implementing, modifying, and
    maintaining the finance and accounting systems. Sound financial management,
    reliable financial information, and auditable financial statements depend on
    reliable data processed collectively by the finance, accounting, and feeder
    systems.

    National Defense Authorization Act for FY 1998. The National Defense
    Authorization Act for FY 1998 (the 1998 Authorization Act) required the
    Secretary of Defense to submit to Congress a biennial strategic plan for the
    improvement of financial management within DoD. The plan was to address all
    aspects of financial management, including the finance systems, accounting
    systems, and data feeder systems that support financial functions of DoD. The
    1998 Authorization Act included additional detailed requirements for a statement
    of objectives, performance measures, schedules, and the identification of
    individual and organizational responsibilities.

    The Financial Management Improvement Plan. FY 1998 was the first year
    in which DoD attempted to consolidate all its financial management system
    reporting requirements into one document by issuing the DoD Biennial Financial
    Management Improvement Plan. Since the DoD Biennial Financial
    Management Improvement Plan was intended to meet a variety of reporting
    requirements, including annual requirements, it required DoD to update it each
    year. In September 1999, DoD began issuing the DoD Financial Management
    Improvement Plan (the Plan) on an annual basis. The Plan is a strategic
    framework that includes the Department’s financial management concept of
    operations and describes the manner in which the Department intends to carry
    out financial management operations in the future. It addresses the
    Department’s critical financial systems and critical program feeder systems that
    provide the majority of the financial source data. The Plan identifies the
    initiatives DoD is implementing to improve critical financial systems and
    processes, and initiatives the Military Departments and Defense agencies are
    implementing to improve the financial data provided by critical feeder systems.
    DoD prepared the 2000 Plan to meet the requirements of the National Defense


                                        1
Authorization Act for FY 2000 (2000 Authorization Act) in addition to the
requirements of the Federal Financial Managers’ Integrity Act of 1982, the
Chief Financial Officers (CFO) Act of 1990, and the FFMIA. The
requirements in the 2000 Authorization Act and DoD compliance with the
requirements are discussed in finding A of this report. We received a copy of
the 2000 Plan on January 30, 2001. The 2000 Plan included 167 critical
accounting, finance, and feeder systems of which 19 were reported as compliant
with requirements of the FFMIA.

         Requirements in Federal Managers’ Financial Integrity Act of 1982
for Section IV of the Annual Statement of Assurance. The Federal
Managers’ Financial Integrity Act of 1982 required that each Federal agency
annually submit a self-assessment of internal control weaknesses. Section IV of
the submission deals specifically with weaknesses in financial management
systems.

         Chief Financial Officers Act of 1990. The CFO Act required the
Office of Management and Budget (OMB) to prepare a government-wide Five-
Year Plan that addressed planned improvements to financial management. The
CFO Act also required each Federal agency to submit a specific supporting
Five-Year Plan to improve its financial management. The CFO Act reporting
requirements for the Five-Year Plan are similar to the reporting requirements of
the 1998 Authorization Act.

          Federal Financial Management Improvement Act of 1996. The
FFMIA required DoD financial management systems to comply substantially
with Federal financial management system requirements, Federal accounting
standards, and the U.S. Government Standard General Ledger at the transaction
level. If DoD systems do not substantially comply with the three requirements,
DoD is required to prepare a remediation plan. The plan should include the
remedies, resources, and intermediate target dates necessary to bring the
financial management systems into substantial compliance with the FFMIA.
Since FY 1997, we have reported, and DoD has acknowledged, that the DoD
financial management systems do not substantially comply with FFMIA
requirements.

Critical Financial Management Systems. DoD defines a critical financial
management system as one that provides information that is materially important
to agency-wide financial management, financial control, and financial reporting.
Criticality is based on the concept that a system provides information that is
important in producing reliable financial reports or statements, ensuring DoD
missions are met within the financial parameters and constraints imposed by the
Congress, or assisting decision-makers, including the Congress.

Legacy Systems. A major part of DoD reform initiatives is the consolidation
and standardization of finance, accounting, and feeder systems. To accomplish
consolidation and standardization, certain existing systems must be designated as
migratory systems into which similar systems (designated as legacy systems) are
to be consolidated. The migratory systems were to undertake enhancements to
correct deficiencies. The ultimate goal is to reduce the number of DoD systems
while making the finance, accounting, and feeder systems provide complete,
reliable, timely, and auditable information.



                                    2
Objectives

     Our objectives were to perform an overall assessment of the 2000 Plan,
     including compliance with the requirements of the 2000 Authorization Act and
     to determine whether the 2000 Plan had adequately identified the status of
     financial management systems compliance. In addition, we reviewed the
     transition from the 1999 Financial Management Improvement Plan.




                                       3
            A. Assessment of the DoD Financial
               Management Improvement Plan
            The 2000 Plan was a valid attempt to develop a strategic framework that
            includes the Department’s financial management concept of operations
            and describes the manner in which the Department intends to carry out
            financial management operations in the future. However, the 2000 Plan
            was an evolving product that was developed using data collected from
            various sources via a data call, was not prepared in a timely manner, and
            has yet to capture all required information. DoD did not fully comply
            with the requirements of the 2000 Authorization Act. As a result, the
            2000 Plan was incomplete and did not ensure that DoD will correct
            system deficiencies and result in an integrated financial management
            system structure. Specific areas of noncompliance with the 2000
            Authorization Act and the impact of the noncompliance are discussed
            below.


Improvements to the 2000 Plan
     DoD continues to refine the Plan as evidenced by the modifications made to the
     critical financial management systems inventory. We noted progress in updating
     the information included in the 2000 Plan for some systems. However, the
     2000 Plan lacked all the information required by the FFMIA regarding the funds
     and time frames required to correct all system deficiencies. We would expect
     DoD to continue to make progress in identifying all critical financial
     management systems and providing the full remedies, resources, and
     intermediate target dates as the DoD Components begin implementation of the
     Financial and Feeder Systems Compliance Process, a systematic approach for
     use in overseeing the Department’s efforts to correct major financial
     management deficiencies in its automated systems.

Preparation of the 2000 Plan
     Requirements for System Reviews. Enactment of the CFO Act and the
     Federal Managers’ Financial Integrity Act of 1982 led to the issuance of OMB
     Circular A-127, “Financial Management Systems,” as revised, July 23, 1993.
     OMB Circular A-127 required each Federal agency to ensure that appropriate
     reviews were conducted and improvements made to financial management
     systems.

     Use of Data Call. As with the previous DoD Financial Management
     Improvement Plans, the 2000 Plan was prepared by the USD(C) using data
     collected from the Military Departments, DFAS, and other Defense agencies.
     Because the necessary data were not available, the USD(C) used a data call
     questionnaire to attempt to collect information from the Military Departments,
     DFAS, and other Defense agencies on DoD financial management systems to
     use in preparing the 2000 Plan.




                                        4
The fact that it was necessary to use a questionnaire to collect data on DoD
financial management systems demonstrated that DoD had not conducted system
reviews as required by OMB Circular A-127 or developed a repository where
data can be reviewed and updated as required so as to provide management with
the information necessary to successfully manage system improvements. If the
overall systems improvement efforts were actively managed on an integrated
basis, frequent systems status data updates would be available to senior
management on a routine basis.

DoD-Wide Involvement. As previously stated, the Military Departments and
Defense agencies are responsible for implementing, modifying, and maintaining
the feeder systems that supply source-level data to the finance and accounting
systems. DFAS has reported that 80 percent of the data on DoD Component
and Agency-Wide financial statements originated in the feeder systems owned
by the Military Departments and Defense agencies. Because such a large
percentage of the data on the DoD Component and Agency-Wide financial
statements is supplied by feeder systems, little progress in meeting CFO
requirements is possible without the financial and other functional communities
collectively working toward financial management system compliance.

Timeliness and Accuracy of the 2000 Plan. The 2000 Plan, both the draft and
final versions, was not issued in a timely manner. The 2000 Authorization Act
required that the 2000 Plan be submitted to Congress not later than
September 30, 2000. However, a draft of the 2000 Plan was not issued for
comment until late November 2000, and the final 2000 Plan was not issued until
January 2001. In addition, our reviews of the 1999 and 2000 Plans have
identified many instances where the data were inaccurate, incomplete, or major
changes were not explained. For example, for the Air Force Military
Modification Initiative, the 2000 Plan showed a completion milestone date of
FY 2002. However, the 2000 Plan showed resource requirements for
implementation of the Military Modification Initiative until FY 2004, and there
was no explanation why resource requirements are needed beyond the
completion milestone date. In addition, the 1999 Plan listed the Centralized
Accounting and Financial Resources Management System as a legacy system.
However, the 2000 Plan listed the Centralized Accounting and Financial
Resources Management System as an FFMIA compliant system but provided no
explanation for the change in compliance status from the 1999 Plan. Conflicting
data such as these are confusing and can mislead the reader. In addition, the
2000 Plan reported 19 systems as FFMIA compliant. However, 12 of the 19
systems reported as FFMIA compliant were either not FFMIA compliant or the
compliance status was not supported (see finding B). The lack of a timely and
accurate plan negatively impacts the Department’s ability to manage financial
improvements and develop budget estimates for financial management systems
funding. Until DoD develops an ongoing process to prepare the Plan in a timely
and accurate manner, the Plan will not be a viable management tool.

National Defense Authorization Act for FY 2000. The 2000 Plan did not
fully meet the requirements of the 2000 Authorization Act. The 2000
Authorization Act contained requirements for the 2000 Plan that were in
addition to the requirements for the Plan in the 1998 Authorization Act.
Additional requirements of the 2000 Authorization Act include a systems
inventory, major procurement actions, a financial management competency



                                   5
    plan, improvements to DFAS, and an internal controls checklist. The table
    below shows the status of the 2000 Authorization Act reporting requirements for
    the 2000 Plan.

                          Table 1. Status of 2000 Authorization Act
                                    Requirements for the 2000 Plan
                                            Reported in the          Adequately Reported
                                              2000 Plan               in the 2000 Plan

      Requirement
      Inventory of systems                         Yes                      No
      Major procurement actions                    Yes                      No
      Financial management                         Yes                      No
      competency plan
      Improvements to DFAS                         Yes                      No
      Internal controls checklist                  Yes                      No


    We will discuss each of the reporting requirements for the 2000 Plan from the
    2000 Authorization Act, whether or not DoD reported on each requirement, and
    the adequacy of the reporting in the following sections.

Inventory of Systems
    The 2000 Plan did not contain a complete inventory of financial management
    systems and did not include all the information required by the 2000
    Authorization Act for systems in the inventory.

    Completeness of Systems Inventory. The 2000 Authorization Act required
    DoD to include within the 2000 Plan an inventory of finance, accounting, and
    feeder systems. However, the 2000 Plan did not contain a complete financial
    management system inventory because of the following.

            •    The definition of a critical financial management system used by
                 DoD was inadequate.

            •    The application of the definition of a critical financial management
                 system by the DoD Components was inconsistent.

            •    DoD did not map the flow of data from transaction origination points
                 to presentation on the DoD Component and Agency-Wide financial
                 statements.

             Definition of a Critical Financial Management System. In the 2000
    Plan, DoD included only critical financial management systems in the system
    inventory. The Draft DoD Financial Management Regulation, volume 1,
    chapter 3, defined a critical financial management system as a system that
    provides information that is materially important to agency-wide financial


                                               6
management, financial control, and financial reporting. Criticality is based on
the concept that a system provides information that is important in producing
reliable financial reports or statements, ensuring DoD missions are met within
the financial parameters and constraints imposed by the Congress, or assisting
decision-makers. Initial guidance for the Financial and Feeder Systems
Compliance Process, a systematic approach for use in overseeing the
Department’s efforts to correct major financial management deficiencies in the
automated systems, included the same definition of a critical financial
management system as the DoD Financial Management Regulation. However,
we informed the USD(C) that the definition was too broad and should be made
more specific. In addition, we suggested that the terms “materially important”
and “agency-wide” needed explanation to ensure consistent interpretation and
application. As a result of our concerns, significant changes were made to the
definition of a critical financial management system when the final version of
the Financial and Feeder Systems Compliance Process was issued on January 5,
2001. To ensure consistency throughout DoD, the revised Critical Financial
and Feeder System Compliance Process also included guidance on the
application of the definition of a critical financial management system.

          Application of the Definition of a Critical Financial Management
System. DoD Components inconsistently applied the definition of a critical
financial management system in determining the critical system inventory for the
2000 Plan. The Army applied the definition of critical at the Army-wide level,
the Navy used a $500 million threshold to determine which systems could be
considered as critical, the Air Force applied the definition of critical at the
general funds and working capital funds level, and the Defense agencies applied
the definition of critical at various levels. However, the previously mentioned
changes to the definition of a critical financial management system and the
guidance for applying that definition should improve the way in which the
definition of a critical financial management system is consistently applied.

           Mapping of Data Flow. DoD has not completely mapped data flows
from transaction origination points to presentation on the DoD Component and
Agency-Wide financial statements. Mapping needs to be completed early in the
compliance process so that all critical and non-critical systems that are involved
in the flow of data from transaction origination points to presentation on the
DoD Component and Agency-Wide financial statements can be identified and
any deficiencies corrected. Failure to identify all systems involved in the flow
of data from transaction origination points to presentation on the DoD
Component and Agency-Wide financial statements and not correcting
deficiencies in the identified systems will continue to impact the accuracy and
reliability of data used to prepare the DoD Component and Agency-Wide
financial statements.

As a result of the broad definition of a critical financial management system, the
inconsistent application of the definition of a critical financial management
system, and the failure to completely map data flows, the DoD Components did
not identify all systems that are the originating source of transactions for data
that are reported on DoD Component and Agency-Wide financial statements.
DoD is at risk of excluding systems that should be included in the inventory in
the Plan, not evaluating these systems for FFMIA compliance, and not
correcting any system deficiencies identified during the process. For example,
the Distribution Standard System is a DLA-owned system that feeds inventory


                                     7
data to Army, Navy, and Air Force inventory systems and is the accountable
record for 75 percent of Army, Navy, Air Force, and DLA inventory.
However, the Distribution Standard System was not identified as a critical
system and therefore was not included in the systems inventory in the 2000 Plan
and has not been evaluated for FFMIA compliance. The figure below shows the
general flow of data from the Distribution Standard System through to the DoD
Agency-Wide financial statements.

                                Distribution
                              Standard System

            Army Inventory      Navy Inventory   Air Force Inventory
               Systems             Systems            Systems



            Army Financial      Navy Financial   Air Force Financial
              Statements          Statements         Statements




                             DoD Agency-Wide
                                Financial
                                Statements

Flow of Data from the Distribution Standard System Through to the DoD
Agency-Wide Financial Statements

The 2000 Plan reported 167 finance, accounting, and feeder systems in the
system inventory. However, the 167 systems included in the system inventory
in the 2000 Plan was not an accurate portrayal of how the future system
infrastructure will look. For example, of the 167 systems listed in the systems
inventory in the 2000 Plan, 99 are legacy systems that will eventually be
eliminated. In addition, the 2000 Plan identifies 20 systems initiatives for new
systems that are not yet included in the systems inventory. Although the
number of systems in the systems inventory has been a very visible and
controversial issue, the financial management system arena is a dynamic and
changing environment. Even though DoD can develop a systems inventory and
report the number of systems in that inventory at a point in time, it is reasonable
to expect the inventory to change as the Financial and Feeder Systems
Compliance Process evolves.

Requirements for the System Inventory. The 2000 Authorization Act also
required that for each system contained in the inventory, the 2000 Plan was to
present specific information, including:

       •   a statement regarding the system’s compliance with applicable
           requirements,



                                       8
       •   a statement regarding whether the system is to be retained,
           consolidated, or eliminated, and

       •   a plan of actions to ensure easy and reliable interfacing between
           systems and to institute internal controls to ensure the integrity of
           system data.

For those systems that are to be consolidated or eliminated, the 2000 Plan
should have included a detailed plan of the actions that are being taken or are to
be taken, including provisions for schedule and interim milestones, in carrying
out the consolidation or elimination. In addition, regarding the systems that are
to be consolidated or eliminated, the 2000 Authorization Act required the 2000
Plan to include a discussion of both the interim or migratory systems and any
further consolidation that may be involved.

         Compliance Status. Although the 2000 Plan included a statement
regarding the compliance status of each of the 167 systems included in the
inventory, the information could not be relied on. For example, the 2000 Plan
reported 19 systems as FFMIA compliant. However, 12 of the 19 systems
reported as FFMIA compliant were either not FFMIA compliant or the
compliance status was not supported.

          Statements on Retention, Consolidation, or Elimination of Systems.
The 2000 Plan would have been more user friendly if it included specific
statements regarding whether each system in the inventory is to be retained,
consolidated, or eliminated. However, only upon review of the Transition Plan
section of volume I and the compliance tables in volume II can a reader
determine whether or not a system is being retained, consolidated, or
eliminated.

          Action Plans to Ensure Easy and Reliable Interfacing. The 2000
Plan did not include a plan of actions to ensure easy and reliable interfacing
between systems and to institute internal controls to ensure the integrity of
system data. The 2000 Plan simply listed the systems with which each system in
the inventory interfaces. The 2000 Plan did not include clearly stated
objectives, performance measures, schedules, and responsibilities for developing
and reporting a plan of actions taken or to be taken to ensure easy and reliable
interfacing between systems and to institute internal controls to ensure the
integrity of the data. As a result, DoD is at risk of having systems that do not
interface properly with other systems and that do not have adequate internal
controls, both of which can negatively impact the data used to prepare DoD
Component and Agency-Wide financial statements.

          Plans for Systems to be Consolidated or Eliminated. For those
systems that are to be consolidated or eliminated, the 2000 Authorization Act
required that the 2000 Plan include a detailed plan of the actions that are being
taken or are to be taken. The detailed plan must include provisions for
schedules and interim milestones in carrying out the consolidation or elimination
and include a discussion of both the interim or migratory systems and any
further consolidation that may be involved. Although the 2000 Plan showed
which systems are replacing the systems scheduled for elimination or
consolidation along with a date and resources for the consolidation, the 2000
Plan did not provide detailed plans for the elimination and consolidation efforts.


                                     9
Major Procurement Actions
    The 2000 Plan did not include all the information on major procurement actions
    that was required by the 2000 Authorization Act.

    Requirements of the 2000 Authorization Act for Major Procurement
    Actions. The 2000 Authorization Act required that the 2000 Plan describe each
    major procurement action being taken by DoD to replace or improve a finance,
    accounting, or feeder system contained in the systems inventory. For each
    major procurement action, the 2000 Plan should have included the measures that
    are being taken or are to be taken to ensure that the new or enhanced system:

           •   provides easy and reliable interfacing of the system with the core
               finance and accounting systems and with other data feeder systems,
               and

           •   includes appropriate internal controls that ensure the integrity of the
               data in the system.

    Data in the 2000 Plan Addressing Major Procurement Actions. The 2000
    Plan included information on several initiatives for developing systems that will
    be replacing many of the legacy systems included in the 2000 Plan. The
    information on the initiatives included what systems will be replaced by or
    consolidated into new systems. However, the information on the initiatives did
    not provide detail on the measures being taken or to be taken to ensure easy and
    reliable interfacing of new systems with the core finance and accounting systems
    and with other data feeder systems. In addition, the 2000 Plan did not include
    any discussion of internal controls that will be implemented to ensure the
    integrity of the data in the system. Because DoD has not identified all systems
    that need to be included in the inventory, it is impossible to know if all the
    required procurement actions necessary for replacing or consolidating
    noncompliant systems have actually been identified.

    Office of Management and Budget Requirements. OMB Circular A-11,
    section 52 requires Federal agencies to submit financial management budget
    justification materials and a report on resources for financial management
    activities. The financial system information required by OMB Circular A-11,
    section 52 fulfills the requirement in the FFMIA for submitting to OMB in
    budget justification materials a remediation plan to bring agency financial
    management systems into substantial compliance with FFMIA. The OMB
    Circular A-11, section 52 budget materials submitted to OMB for FY 2000
    reported different resources from those reported in the 2000 Plan because the
    budget materials submitted to OMB included the resources for all financial
    management systems while the 2000 Plan included only the resources for critical
    financial management systems. The budget materials submitted to OMB
    reported $1.5 billion for all DoD financial management systems for FY 2000
    and FY 2001. The 2000 Plan estimated $3.7 billion for the critical DoD
    financial management systems for FY 2000 through FY 2003. This estimate is
    understated. Some systems lacked a cost estimate for corrective actions, there is
    no process to validate the cost estimates, and it is uncertain that all systems have
    been identified. The fact that the OMB Circular A-11, section 52 budget
    materials submitted to OMB reported different resources from those in the


                                        10
    2000 Plan brings into question the accuracy of both sets of data. It is possible
    that the 2000 Plan excluded systems that should have been considered as critical
    or the OMB Circular A-11, section 52 budget materials submitted to OMB
    included requests for funding that was unnecessary. The USD(C) should work
    with the Military Departments and Defense agencies to develop a process to
    ensure that future OMB Circular A-11, section 52 budget materials submitted to
    OMB include the funds required to support the Financial and Feeder Systems
    Compliance Process and that the budget materials match the Plan.

    The usefulness of the Plan for planning and implementing an integrated financial
    management system structure is limited until more firm procurement plans are
    developed and until internal controls are implemented to ensure the integrity of
    the data in the systems.

Financial Management Competency Plan
    The 2000 Plan did not include all the information on the financial management
    competency plan that was required by the 2000 Authorization Act.

    Requirements of the 2000 Authorization Act for Financial Management
    Competency Plan. The 2000 Authorization Act requires DoD to include in the
    2000 Plan a financial management competency plan that includes performance
    objectives, responsible officials, and the necessary resources to accomplish the
    performance objectives. Specifically, the 2000 Plan was to include the
    following:

           •   a description of the actions necessary to ensure that the person in
               each comptroller or comparable position has the education, technical
               competence, and experience to perform in accordance with the core
               competencies necessary for financial management;

           •   a description of the education that is necessary for a financial
               manager in a senior grade to be knowledgeable in applicable laws
               and administrative and regulatory requirements; the strategic
               planning process and how the process relates to resource
               management; budget operations and analysis systems; management
               analysis functions and evaluations; and the principles, methods,
               techniques, and systems of financial management;

           •   the advantages and disadvantages of establishing and operating a
               consolidated DoD school that instructs in financial management
               principles; and

           •   the applicable requirements for formal civilian education.

    Data in the 2000 Plan Addressing Financial Management Competency Plan.
    The 2000 Plan included a description of the efforts being taken by the Military
    Departments and five Defense agencies to ensure that financial management
    personnel have the necessary education, technical competence, and experience
    to perform their financial management functions. However, the 2000 Plan did
    not include a description of the education necessary for a financial manager in a
    senior grade to meet the requirements listed above. The development of


                                       11
    DoD-wide standard training for senior grade and other DoD financial managers
    would help ensure that personnel are skilled in the financial management duties
    and functions required to perform financial management responsibilities for an
    organization as complex as DoD. In addition, the 2000 Plan did not include any
    information on the advantages and disadvantages of establishing and operating a
    consolidated DoD school that instructs in financial management principles nor
    does the 2000 Plan include information on the applicable requirements for
    formal civilian education.

    Systems are only as good as the human capital complementing them. Even
    where all DoD financial management systems are FFMIA-compliant, financial
    management personnel not adequately skilled in their duties and responsibilities
    could negatively impact the accuracy and reliability of financial data. The 2000
    Plan did not include any information on the number and types of financial
    management personnel currently working in the various levels of financial
    management within DoD or the planned future staffing requirements including
    the types of skills necessary for those persons to fulfill their financial
    management duties and responsibilities. Until DoD implements standards to
    ensure the competency of financial management personnel, such as the
    development of DoD-wide standard training for all levels including senior grade
    and other DoD financial managers, DoD is at risk of having unreliable financial
    data. One approach to addressing the future financial management human
    capital requirements would be to establish a senior steering group, similar to the
    one envisioned by the acquisition community for “Shaping The Civilian
    Acquisition Workforce Of The Future.” A similar approach would establish
    human capital requirements including the number and types of financial
    management personnel there are now and the planned future staffing
    requirements. In addition, the senior steering group should describe the
    necessary performance characteristics and training requirements for investment
    in future financial management human capital and outline action plans and the
    requisite documentation, legislation, and other tools to support career paths for
    transitioning to the DoD financial management workforce of the 21st century.

Improvements to the Defense Finance and Accounting Service
    The 2000 Plan did not address all the requirements in the 2000 Authorization
    Act for improvements to DFAS.

    Requirements of the 2000 Authorization Act for Improvements to DFAS.
    The 2000 Authorization Act required the 2000 Plan to include a detailed plan,
    including performance objectives and milestones and standards for measuring
    progress toward attainment of the performance objectives for the following:

           •   Improving the internal controls and internal review processes of
               DFAS to provide reasonable assurance that:

                  •   obligations and costs are in compliance with applicable laws;

                  •   funds, property, and other assets are safeguarded against
                      waste, loss, unauthorized use, and misappropriation;




                                        12
             •    revenues and expenditures applicable to agency operations are
                  properly recorded and accounted for so as to permit the
                  preparation of accounts and reliable financial and statistical
                  reports and to maintain accountability over assets;

             •    obligations and expenditures are recorded contemporaneously
                  with each transaction;

             •    organizational and functional duties are performed separately
                  at each step in the cycles of transactions; and

             •    use of progress payment allocation systems results in posting
                  of payments to appropriation accounts consistent with section
                  1301 of title 31, United States Code.

       •   Ensuring that DFAS has:

             •    a single standard transaction general ledger that uses double-
                  entry bookkeeping and complies with the U.S. Government
                  Standard General Ledger at the transaction level as required
                  by the FFMIA;

             •    an integrated database for finance and accounting functions;
                  and

             •    automated cost, performance, and other output measures.

       •   Providing a single, consistent set of policies and procedures for
           financial transactions throughout DoD;

       •   Ensuring compliance with applicable policies and procedures for
           financial transactions throughout DoD; and

       •   Reviewing safeguards for preservation of assets and verifying the
           existence of assets.

Data in the 2000 Plan Addressing Improvements to DFAS. The 2000 Plan
discussed the late 1999 reorganization of the DFAS field internal review staff
from service aligned to geographically aligned. However, the 2000 Plan did not
discuss details for measuring progress towards improving DFAS internal
controls, internal review processes, performance measures, and other selected
items. As the primary accounting and financial arm of DoD, DFAS needs to set
the standards for other financial organizations to model. DFAS has
accomplished significant reengineering of its business practices and supporting
system concepts since 1999 but has yet to clearly outline its blueprint for
progress so that it can obtain appropriate recognition for its accomplishments.
Therefore, DoD should expand the Plan to address the actions DFAS is taking
to improve its business practices and supporting system concepts.




                                    13
Internal Controls
     The 2000 Plan did not include all the information on internal controls that was
     required by the 2000 Authorization Act.

     Requirements of the 2000 Authorization Act for Internal Controls. The
     2000 Authorization Act required the 2000 Plan to include an internal controls
     checklist which would provide standards for use throughout DoD together with
     a statement of the DoD policy on use of the checklist throughout DoD.
     Statement on Auditing Standards (SAS) No. 78, “Consideration of Internal
     Controls in a Financial Statement Audit: An Amendment to SAS No. 55,”
     December 1995, defines internal controls as a process performed by an entity’s
     board of directors, management, or other personnel, designed to provide
     reasonable assurance regarding the achievement of objectives in the following
     areas: reliability of financial reporting, effectiveness and efficiency of
     operations, and compliance with applicable laws and regulations.

     Data in the 2000 Plan Addressing Internal Controls. The 2000 Plan did not
     include the checklist required by the 2000 Authorization Act. Instead, the 2000
     Plan stated that while internal control objectives are similar across DoD, the
     specific procedures and steps to satisfy control objectives are not the same for
     various organizations. Although this is true, DoD could still develop a checklist
     of standard internal controls expected to be in place and operating for all DoD
     Components while the specific procedures for implementing the standard
     internal controls could vary from Component to Component. The 2000 Plan
     does acknowledge the importance of the internal controls required by the 2000
     Authorization Act, but it does not provide details on how DoD plans to ensure
     the controls are in place and operating effectively. Since 1988, the General
     Accounting Office and the DoD audit community have reported that internal
     controls within the Department were not adequate to ensure that resources were
     properly managed and accounted for, that DoD complied with applicable laws
     and regulations, and that the financial statements were free of material
     misstatements. Developing and implementing effective internal controls would
     aid DoD in receiving other than a disclaimer of opinion on the DoD Component
     and Agency-Wide financial statements as has been the case for the last 13 years.

Approach for the 2001 Plan
     The USD(C) has plans to make major modifications to the 2001 Plan. Rather
     than look at each of the 167 financial management systems in isolation, as has
     been the practice in the previous plans, DoD intends to address groups of
     systems and the way they interact with each other for each major reporting
     entity. DoD plans to begin with the critical feeder systems and map the flow of
     data through to the systems that contain the data to be used in preparing the
     DoD Component and Agency-Wide financial statements. This process is
     intended to highlight problem areas related to a group of systems because before
     a group of systems can be considered compliant, all systems in the group must
     be compliant. However, to develop a complete systems inventory and identify




                                        14
     all problems with those systems, DoD must be sure to map the flow of data
     from the transaction origination points through to the DoD Component and
     Agency-Wide financial statements.

Other Issues
     In addition to the requirements of the 2000 Authorization Act, there are several
     other issues we believe need to be addressed in the Plan to make it a viable tool
     for management.

     Data Standardization. Data standardization is essential for DoD financial
     management systems to communicate with each other without increasing the risk
     of material errors in the data. Currently, DoD does not have a set of standard
     data elements. As a result, many systems communicate with each other by
     cross-walking the information from one system into a format usable by the other
     system. The 2000 Plan states that DoD is developing the Defense Information
     Infrastructure to facilitate the transmission of mission critical information,
     including financial services, necessary to sustain operations. However, the 2000
     Plan does not provide details of how DoD plans to implement the Defense
     Information Infrastructure or how DoD plans to deal with the many non-
     standard data elements used by the Military Departments and Defense agencies.

     Cost Systems. The Department needs to initiate actions to implement
     managerial cost accounting systems and include these initiatives in the Plan.
     Most DoD activities lack even rudimentary managerial cost accounting systems
     and the cost accounting systems of industrial activities may not produce accurate
     information on a real-time basis. The cost management function provides
     relevant, internal cost measurement for operational managers and decision-
     makers to continuously improve operations. Statement of Federal Financial
     Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
     Standards for the Federal Government,” July 31, 1995, states that each
     reporting entity should accumulate and report the cost of its activities on a
     regular basis for management information purposes. Managerial cost
     accounting should be a fundamental part of the financial management system
     and should be an essential element of proper financial planning, control, and
     evaluation. Until DoD develops and implements managerial cost accounting
     systems, the Department will not be able to comply with the requirements of
     Statement of Federal Financial Accounting Standards No. 4 and will lack the
     cost information necessary to control and reduce costs, control work processes,
     and measure performance.

     Budgetary Systems. The 2000 Plan did not include information on budget
     formulation systems. The 2000 Plan acknowledged that DoD has various
     budget formulation processes and systems, ranging from electronic spreadsheets
     and manual processes to automated information systems. The 2000 Plans states
     that it is the Department’s approach to determine what efforts are required to
     address budget formulation systems once its finance, accounting, and feeders
     systems are FFMIA compliant. However, because of the length of time
     required to implement an integrated information system, the Department should
     start now on developing requirements for an integrated and on-line information
     system for budget formulation.



                                         15
Conclusion
    Although we identified several improvements, the Plan continues to be a work
    in process. The 2000 Plan was a valid attempt to comply with difficult
    reporting requirements. However, several aspects of the 2000 Plan were
    incomplete, unsupported, or did not comply with the additional reporting
    requirements of the 2000 Authorization Act. Until DoD establishes procedures
    to ensure that the Plan is complete, supported, and in full compliance with
    governing statutes, it will be of limited use to DoD financial managers and
    decision-makers, including Congress.


Recommendations
    A. We recommend that the Under Secretary of Defense (Comptroller):

            1. Ensure all systems involved in the flow of data from the transaction
    origination points to presentation on the DoD Component and Agency-Wide
    financial statements are considered for inclusion in the system inventory by
    mapping the flow of data from the transaction origination points to presentation
    on the DoD Component and Agency-Wide financial statements.

           2. Work with the Military Departments and Defense agencies to:

                   a. Develop a detailed plan on the measures being taken or to be
    taken to ensure easy and reliable interfacing of any new systems with other
    finance, accounting and feeder systems.

                   b. Develop a plan of internal controls that will be implemented
    to ensure the integrity of data in new systems.

                  c. Develop a process to ensure that future Office of Management
    and Budget Circular A-11 budget materials submitted to Office of Management
    and Budget include the funds required for implementing the Financial and
    Feeder Systems Compliance Process and that the budget matches the Financial
    Management Improvement Plan.

           3. Establish a senior steering group which will, at a minimum:

                    a. Describe the performance characteristics and training
    requirements of the future financial management human capital requirements
    and to outline action plans and the requisite documentation, legislation, and
    other tools to support career paths for transitioning to the DoD financial
    management workforce of the 21st century.

                    b. Ensure that future Financial Management Improvement Plans
    include information on the number and types of financial management personnel
    currently working in the various levels of financial management within DoD and
    the planned future staffing requirements including the types of skills necessary
    for those persons to fulfill their financial management duties and
    responsibilities.


                                       16
        4. Include in a future Financial Management Improvement Plan a
discussion of the advantages and disadvantages of establishing and operating a
consolidated DoD school that instructs in financial management principles and
information on the requirements for formal civilian education requirements for
financial managers.

       5. Expand the Financial Management Improvement Plan to ensure that
the Defense Finance and Accounting Service clearly outlines its blueprint for
progress.

       6. Develop and implement a DoD-wide checklist of standard internal
controls for financial management.

       7. Ensure that future Financial Management Improvement Plans
include:

              a. Details of how DoD plans to implement the Defense
Information Infrastructure and how to deal with the many non-standard data
elements used by the Military Departments and the Defense agencies.

              b. Plans for developing and implementing managerial cost
accounting systems for DoD.

              c. Plans for developing the requirements for an integrated and
on-line information system for budget formulation.




                                   17
           B. Systems Compliance
           The DoD Components did not conduct proper or complete evaluations of
           12 critical financial management systems reported as FFMIA compliant
           in the 2000 Plan. This occurred because DoD used incorrect or
           incomplete criteria to perform system evaluations of six systems listed as
           FFMIA compliant in the 2000 Plan. In addition, DoD did not maintain
           adequate documentation to support compliance evaluations of six systems
           before reporting the systems as FFMIA compliant in the 2000 Plan. As
           a result, at least 12 of the 19 systems reported as FFMIA compliant in
           the 2000 Plan were either not FFMIA compliant or the compliance status
           was not supported. We identified similar problems with the systems
           reported as compliant with FFMIA in the 1999 Plan.


Guidance
    Office of Management and Budget Bulletin No. 01-02. OMB Bulletin
    No. 01-02, “Audit Requirements for Federal Financial Statements,” October
    16, 2000, requires auditors to report whether a reporting entity’s financial
    management systems substantially comply with Federal financial management
    system requirements, applicable Federal accounting standards, and the U.S.
    Government Standard General Ledger.

    USD(C) and DFAS Guidance. In preparation for issuing the 1999 Plan, the
    USD(C) sent a memorandum to the DoD Components requiring that critical
    feeder systems and migratory finance and accounting systems be evaluated for
    compliance with Federal financial management system requirements and
    accounting standards. For any systems determined to be in full compliance,
    DoD Components were required to identify the method used to validate the
    compliance. In addition, the DFAS prepared “A Guide To Federal
    Requirements For Financial Management Systems,” also known as the Blue
    Book. The guide incorporates more than 1,500 requirements from many
    authoritative sources applicable to Federal financial management systems. Some
    of these sources include OMB, the Federal Accounting Standards Advisory
    Board, the Department of the Treasury, and the Joint Financial Management
    Improvement Plan Program Office. DFAS has made the guide available to the
    DoD Components on the DFAS Internet site.


System Compliance
    The 1999 Plan and the 2000 Plan provide information on the compliance status
    of critical financial management systems in DoD. The table that follows
    identifies the number of finance, accounting, and feeder systems identified as
    compliant with the FFMIA in the 1999 Plan and those listed as FFMIA
    compliant in the 2000 Plan.




                                       18
   Table 2. Systems Listed as FFMIA Compliant in the Improvement Plan
                            Systems       Systems          Systems       Total Systems
                           Reported     Removed from       Added to        Reported
                           Compliant    Compliant List    Compliant       Compliant
  Type of System            for 1999      for 2000       List for 2000     for 2000
  Finance and Accounting       7               1               7               13
  Army feeder                  3               2               0                1
  Navy feeder                 11               9               2                4
  Air Force feeder             1               1               0                0
  Defense agency feeder        1               0               0                1
                             ___             ___             ___              ___
  Total                       23              13               9               19



We attempted to verify whether the systems were compliant with FFMIA
requirements by reviewing the evaluation and validation methods applied to each
system. We reviewed the information included in the 1999 Plan and the 2000
Plan, met with representatives from the Military Departments and system
program offices, collected documentation related to the evaluations and
validations, and reviewed audit results related to systems identified as FFMIA
compliant. The DoD Components did not conduct proper evaluations of their
systems before reporting them as compliant with FFMIA requirements. For
some systems, the information in the 1999 Plan and the 2000 Plan was
inconsistent with audit results. For other systems, the evaluations were
incomplete. The Military Departments acknowledged that their feeder systems
listed in the 1999 Plan were not FFMIA compliant.

Finance and Accounting Systems. At least 8 of the 13 finance and accounting
systems reported as compliant in the 2000 Plan were either not substantially
compliant with the FFMIA requirements or the compliance status was not
supported. In addition, review of compliant finance and accounting systems in
the 1999 Plan had similar results. We determined that at least five of the seven
finance and accounting systems reported as compliant in the 1999 Plan were not
substantially compliant with FFMIA requirements. Of the seven finance and
accounting systems reported as FFMIA compliant in the 1999 Plan, one system
was removed from the list of FFMIA compliant systems for the 2000 Plan and
seven systems were added to the list of FFMIA compliant systems for the 2000
Plan.

          Defense Retiree and Annuitant Pay System. The Defense Retiree
and Annuitant Pay System is a DFAS-owned system that establishes,
adjudicates, and maintains accounts for DoD military retirees, their former
spouses, garnishment recipients, and survivors. Although the Defense Retiree
and Annuitant Pay System was listed in both the 1999 Plan and the 2000 Plan as
an FFMIA-compliant system, we determined it was not substantially compliant
with FFMIA requirements. Inspector General, DoD, Report No. D-2001-068,
“Inspector General, DoD, Oversight of the Audit of the FY 2000 Military
Retirement Fund Financial Statements,” February 28, 2001, states that the
electronic data processing systems used by the Military Retirement Fund did not


                                   19
comply substantially with the requirements of FFMIA. Specifically, the general
ledger is not transaction based or derived from an integrated financial system.

          Corps of Engineers Financial Management System. The Corps of
Engineers Financial Management System (CEFMS) is an Army-owned financial
management system that fully integrates the U.S. Army Corps of Engineers’
business processes and supports the management of all types of work and funds.
CEFMS was listed in the 1999 Plan and the 2000 Plan as an FFMIA-compliant
system. However, CEFMS was not substantially compliant with FFMIA
requirements. The Army Audit Agency conducted several reviews of CEFMS.
In Army Audit Agency Report No. 01-187, “FY 2000 Financial Statements,
U.S. Army Corps of Engineers, Civil Works,” February 14, 2001, the Army
Audit Agency concluded that until a review of CEFMS is completed, they could
not verify that the system complies with the Federal financial management
system requirements portion of FFMIA. Therefore, CEFMS should be listed in
the 2001 Plan as noncompliant with FFMIA requirements.
         Defense Debt Management System. The Defense Debt Management
System is a DFAS-owned automated financial management system developed to
pursue debt collection efforts and recoup monies owed the Government by
individuals out of the Service and delinquent contractors. The system was listed
in the 1999 Plan and the 2000 Plan as an FFMIA-compliant system. However,
the evaluation conducted of the Defense Debt Management System to support
the compliance status was incomplete. The Defense Debt Management System
was evaluated only for functions that apply to individual debt and not for
contractor debt. The Defense Debt Management System should not be reported
as FFMIA compliant until it is evaluated for all applicable functions it supports.

          Defense Joint Accounting System. The Defense Joint Accounting
System is identified as the DFAS general accounting system for specific DFAS
Indianapolis customers, which includes the Defense agencies; Army Posts,
Camps and Stations; the Army National Guard; and the Army Materiel
Command. The Defense Joint Accounting System has not been evaluated
against FFMIA requirements for all system users. We believe that reporting the
Defense Joint Accounting System as a compliant system is misleading. The
Defense Joint Accounting System is compliant with the applicable requirements
only for the Defense agency customer base, not for its customer base as a
whole. We believe it is premature to report the Defense Joint Accounting
System as FFMIA compliant until evaluated for all the customers it will support.

         Defense Civilian Pay System. The Defense Civilian Pay System is
the automated information system that supports civilian payroll operations for
DoD. Although the Defense Civilian Pay System was listed as a noncompliant
with FFMIA requirements in the 1999 Plan, it is listed as an FFMIA-compliant
system for the 2000 Plan. However, we determined that the Defense Civilian
Pay System was not substantially compliant with FFMIA requirements.
Inspector General, DoD, Report No. D-2001-055, “General Controls for the
Defense Civilian Pay System,” February 21, 2001, identified material general
and application control weaknesses that impact the ability of auditors performing
Chief Financial Officer audits to rely on the data within the Defense Civilian
Pay System without substantial verification. As a result, the Defense Civilian




                                    20
Pay System was not compliant with the Federal financial system requirement
portion of FFMIA and should be listed in the 2001 Plan as noncompliant with
FFMIA requirements.

          Centralized Accounting and Financial Resources Management
System. The Centralized Accounting and Financial Resources Management
System is a financial management system that provides a centralized, real-time
data source for accounting, budgeting, and programming functions. The
Centralized Accounting and Financial Resources Management System is listed in
the 1999 Plan as a legacy system but in the 2000 Plan as an FFMIA-compliant
system. Our discussions with personnel at the Defense Threat Reduction
Agency, who owns the Centralized Accounting and Financial Resources
Management System, revealed that the system had not been formally evaluated
for FFMIA compliance but that a contractor will be performing the evaluation in
the near future.

          Federal Financial Accounting Management Information System.
The Federal Financial Accounting Management Information System is a
commercial-off-the-shelf system used by the Defense Information System
Agency Defense Working Capital Fund within the Telecommunications and
Acquisition Services business area. The system was not included in the
inventory of systems in the 1999 Plan but is included in the 2000 Plan as an
FFMIA-compliant system. The Federal Financial Accounting Management
Information System was purchased from the General Services Administration
schedule of Joint Financial Management Improvement Program-approved
systems that were tested as compliant with Federal financial management system
requirements. The compliance status of any core accounting system purchased
as compliant with Federal financial management system requirements must be
documented, and the documentation must be available and maintained. Also,
there was no documentation to support that the system was compliant with other
requirements such as those published by the OMB and the Federal Accounting
Standards Advisory Board. Any core accounting system purchased as compliant
with Federal financial management system requirements based on Joint
Financial Management Improvement Program testing that is subsequently
modified can no longer be considered FFMIA compliant without an evaluation
by DoD. DoD should develop a methodology to ensure that Joint Financial
Management Improvement Program-approved systems which are modified by
DoD are evaluated for FFMIA compliance. In addition, DoD should develop a
process to ensure that the compliance status of Joint Financial Management
Improvement Program-approved systems which are not modified by DoD is
fully and adequately documented. Until DoD develops methodologies for Joint
Financial Management Improvement Program-approved systems that are not
modified and for those that are modified, DoD should not report commercial-
off-the-shelf systems in the annual Plan as FFMIA compliant.

          Program Budget Accounting System-Funds Distribution. The
Program Budget Accounting System-Funds Distribution is a system used by the
Office of the Secretary of Defense, the Navy, and the U.S. Army Corps of
Engineers to distribute funds. The Program Budget Accounting System-Funds
Distribution is also used to distribute U.S. Army Corps of Engineers Civil
Works and Air Force construction funds. The system was included in the 1999
Plan and the 2000 Plan as an FFMIA-compliant system. We requested
documentation from the program office to support the responses to the Blue


                                  21
Book requirements. The program office informed us that although they had
maintained such documentation in the past, they had not done so in recent years.
However, the program office agreed with the need to be able to support
responses to the Blue Book requirements and stated that they intended to begin
work on documenting the support for responses to the requirements in the near
future.

Military Department and Defense Agency Feeder Systems. We determined
at least four of the six Military Department feeder systems listed as FFMIA
compliant in the 2000 Plan were either not substantially compliant with FFMIA
requirements or the compliance status was not supported. In addition, our
review of compliant Military Department feeder systems in the 1999 Plan had a
similar outcome. Although the 1999 Plan identified 15 Military Department
feeder systems as FFMIA compliant, the Military Departments acknowledged
that none of the 15 systems were FFMIA compliant. Of the 15 Military
Department feeder systems reported as FFMIA compliant in the 1999 Plan, 12
were removed from the list of compliant systems for the 2000 Plan and 2
systems were added to the list of FFMIA-compliant systems for the 2000 Plan.

We collected data on Military Department feeder systems to verify the methods
and criteria used to evaluate the systems. We determined that some Military
Department feeder systems were not properly evaluated and should not have
been reported as FFMIA compliant.

         Army Feeder Systems. The list of Military Department feeder
systems reported as FFMIA compliant for the 2000 Plan includes one Army
system — the Real Estate Management Information System. However, we
determined that the compliance status could not be supported.

The Real Estate Management Information System supports the real estate
business process at the U.S. Army Corps of Engineers district level. However,
when we contacted the Office of the Assistant Secretary of the Army (Financial
Management and Comptroller) we were informed that the Army (Financial
Management and Comptroller) had no documentation to support the compliance
status for the 2000 Plan. The Real Estate Management Information System was
also listed as FFMIA compliant in the 1999 Plan.

The Army identified two additional systems as FFMIA compliant in the 1999
Plan but removed both systems from the compliant list in the 2000 Plan. The
two systems are the Joint Uniform Military Pay System (JUMPS) Standard
Terminal Input System, which is the military pay system for the Army National
Guard, and the Procurement Automated Data and Document System, which is
an acquisition system that receives requests for procurement and awards
contracts. When we attempted to verify the 1999 compliance status of the Army
JUMPS Standard Terminal Input System, we were told by the system program
office they misunderstood the data call questionnaire. The Army JUMPS
Standard Terminal Input System program office had completed the data call
questionnaire as they believed it applied to Year 2000 compliance, and not
compliance with FFMIA requirements. We did not conduct audit work on the
compliance status of the Procurement Automated Data and Document System.




                                   22
          Navy Feeder Systems. The list of Military Department feeder
systems reported as FFMIA compliant for the 2000 Plan includes four Navy
systems. However, when we attempted to verify the 2000 compliance status of
the four Navy systems, we determined that three of the four systems are not
FFMIA compliant or that the compliance status was not supported. In addition,
the Navy reported 11 systems as FFMIA compliant in the 1999 Plan. When we
met with personnel from the Office of the Assistant Secretary of the Navy
(Financial Management and Comptroller) in May 2000, we were informed at
that time that the Navy did not consider any of its systems FFMIA compliant.

                     Momentum Financial Information System. The
Momentum Financial Information System is a commercial-off-the-shelf system
used by the Navy. Although the system was not included in the inventory in the
1999 Plan, it was included in the list of compliant systems in the 2000 Plan.
The system was purchased from the General Services Administration schedule
of Joint Financial Management Improvement Program-approved systems that
were tested as compliant with Federal financial management system
requirements. According to the responsible program office, the source code for
the system has not been modified since purchase. However, until DoD develops
a methodology to ensure that the compliance status of Joint Financial
Management Improvement Program-approved systems not significantly modified
after purchase are fully and adequately documented, DoD should not report
these systems in the Plan as being FFMIA compliant. Also, documentation is
necessary to ensure that the system meets applicable OMB and Federal
Accounting Standards Advisory Board requirements.

                     Normalization of Data System. The Normalization of
Data System is used for project planning, cost estimating, relative risk ranking,
predicting future requirements, and reporting to higher authority on
environmental cleanup work by the Naval Facilities Engineering Command.
The Normalization of Data System was listed in the 1999 Plan as an FFMIA-
compliant system. When we contacted the program office and requested
documentation to support the compliance status, we were informed that no
documentation was available. To make the compliance determination, program
office personnel reviewed the requirements in the Blue Book and OMB Bulletin
No. A-130, “Management of Federal Information Resources,” February 8,
1996, and concluded the system was compliant but did not document the review.
The system was also included in the 2000 Plan as an FFMIA-compliant system.
We contacted the program office again to update the information obtained
concerning the compliance status and determined that no additional reviews had
been performed or documentation generated that supports the compliance status
of the system in either the 1999 Plan or the 2000 Plan.

                      Standard Labor Data Collection and Distribution
Application. The Standard Labor Data Collection and Distribution Application
(SLDCADA) has been selected by the Navy as the standard time and attendance
system. SLDCADA allows for centralized or distributed input and provides the
capability to track civilian, military, and contractor labor hours against job order
number for financial purposes and against type hour codes for pay purposes.
SLDCADA was listed in the 1999 Plan as an FFMIA-compliant system.
However, when we contacted the program office concerning the 1999
compliance status, we were informed that the system evaluation was performed
by using only a portion of the Blue Book and was not documented. SLDCADA


                                    23
was also included in the 2000 Plan as an FFMIA-compliant system. Although
no additional evaluation work had been performed, we were informed by
personnel at the Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) that the Navy had received the money to perform
the validation of SLDCADA.

                     Previously Reported Compliant Systems. The Navy
identified nine additional systems as FFMIA compliant in the 1999 Plan which
are not reported as FFMIA compliant in the 2000 Plan. The nine additional
systems are:

             •    Aircraft Engine Management System;

             •    Aircraft Inventory Readiness and Reporting System;

             •    Craft and Boat Support System;
             •    Industrial Logistics Support Management Information System;

             •    Metrology Automated System for Uniform Recall and
                  Reporting;

             •    Naval Vessel Register;

             •    Strategic Weapons Facility, Atlantic, Missile History and
                  Status Report System;

             •    Strategic Weapons Facility, Pacific, Missile History and
                  Status Report System; and

             •    Support Equipment Resources Management Information
                  System.

We reviewed the evaluations supporting the 1999 compliance status of three of
the above systems: the Naval Vessel Register; the Strategic Weapons Facility,
Atlantic, Missile History and Status Report System; and the Strategic Weapons
Facility, Pacific, Missile History and Status Report System. A review of the
evaluations of the three systems showed that the evaluations were either
inadequate or not documented. We did not review the evaluations supporting
the compliance status of the remaining six Navy feeder systems listed as FFMIA
compliant in the 1999 Plan because before we could start the reviews, the Office
of the Assistant Secretary of the Navy (Financial Management and Comptroller)
informed us in May 2000 they did not consider any Navy feeder systems to be
FFMIA compliant at that time.

          Air Force Feeder System. The Air Force did not report any systems
as FFMIA compliant in the 2000 Plan. The one system the Air Force reported
as FFMIA compliant in the 1999 Plan — the Job Order Cost Accounting System
— was not included in the 2000 Plan as an FFMIA-compliant system. When we
met with personnel at the Office of the Assistant Secretary of the Air Force
(Financial Management and Comptroller) to discuss the 1999 compliance status
of the Job Order Cost Accounting System, we were informed that the Air Force
did not consider any Air Force feeder systems to be FFMIA compliant.


                                   24
             Defense Agency Feeder Systems. The Defense agencies reported one
    system as FFMIA compliant in both the 1999 Plan and the 2000 Plan — the
    Defense Property Accountability System. However, we did not review the
    evaluation of this system to determine the accuracy of the compliance status.


Conclusion
    The DoD Components did not conduct proper or complete evaluations of critical
    financial management systems. As a result, at least 12 of the 19 systems
    included in the 2000 Plan as FFMIA compliant were either not FFMIA
    compliant or the compliance status was not supported. We identified that at
    least 8 of the 13 finance and accounting systems and 4 of the 6 Military
    Department and Defense agency critical feeder systems reported as FFMIA
    compliant in the 2000 Plan were either not FFMIA compliant or the compliance
    status could not be supported. Also, at least five of the seven finance and
    accounting systems listed in the 1999 Plan were not FFMIA compliant. In
    addition, the Military Departments acknowledged that none of their feeder
    systems listed as compliant in the 1999 Plan were FFMIA compliant at the time
    the 1999 Plan was issued. As a result, at least 20 critical financial management
    systems were erroneously reported in the 1999 Plan as FFMIA compliant.


Recommendations, Management Comments, and Audit
  Response
    Renumbered and Revised Recommendations. As a result of adding an
    additional finding (new finding A) to this report, draft report Recommendations
    A., B., and C. were renumbered as Recommendations B.1., B.2., and B.3. In
    addition, the recommendations in the draft of this report were for the draft of
    the 2000 Plan. After we issued the draft of this report on January 29, 2001, we
    received and reviewed the final 2000 Plan. Therefore, our recommendations
    are now directed toward corrective actions for the 2001 Plan.

    B. We recommend that the Deputy Chief Financial Officer:

          1. Redesignate the compliance status of the following systems as
    noncompliant for the 2001 Financial Management Improvement Plan:

                  a. Defense Retiree Annuitant System,

                  b. Corps of Engineers Financial Management System, and

                  c. Defense Civilian Pay System.

          2. Redesignate the compliance status of the following systems as not
    determined for the 2001 Financial Management Improvement Plan:

                  a. Defense Debt Management System,



                                       25
               b. Defense Joint Accounting System,

           c. Centralized Accounting and Financial Resources
Management System,

               d. Federal Financial Management Information System, and

               e. Momentum Financial Information System.

      3. Require the Military Departments and the Defense Finance and
Accounting Service to review the system evaluations for the following
systems to ensure that the compliance status for the 2001 Financial
Management Improvement Plan is adequately documented and supported:

               a. Program Budget Accounting System-Funds Distribution,

               b. Real Estate Management Information System,
               c. Normalization of Data System, and

               d. Standard Labor Data Collection and Distribution
Application.

Management Comments. The Deputy Chief Financial Officer stated that two
draft recommendations, which pertained to changing the compliance status of
systems in the 2000 Plan have been overcome by events because the 2000 Plan
was finalized and published before the draft report was received. The Deputy
also commented that for development of the 2000 Plan, it was the responsibility
of the DoD Components to determine the compliance status of their systems.
The Deputy stated that any disagreement we have with the compliance status of
a particular system should be directed to the DoD Component responsible for
that system. In addition, the Financial and Feeder Systems Compliance
Process, issued January 5, 2001, will involve senior Department-level oversight
and a standardized process for the DoD Components to follow in compliance
determinations. Further, Inspector General, DoD, personnel will play a critical
role in the validation phase of the Financial and Feeder Systems Compliance
Process by developing a standard validation methodology to be used. The
Deputy anticipates that the Financial and Feeder Systems Compliance Process
will improve the systems compliance process and address our concerns.

Audit Response. Management comments to the draft report were responsive.
We agree that the first two recommendations in the draft report have been
overcome by the issuance of the final 2000 Plan. However, we have revised the
systems compliance recommendations and they now apply to the 2001 Plan.
Although the DoD Components are responsible for determining the compliance
status of their systems, we believe the USD(C) also has a responsibility to help
ensure the compliance status of systems reported in the Plan is accurate and
supported. The Financial and Feeder Systems Compliance Process, if properly
implemented, should help ensure that the compliance status of systems reported
in the Plan is accurate and supported. We request that management provide
comments on the revised system compliance recommendations.




                                   26
Appendix A. Audit Process

Scope and Methodology
    Work Performed. This financial-related audit was conducted as part of our
    responsibilities under the FFMIA to assess the DoD financial management
    system improvement plan. We reviewed the 2000 Plan for compliance with the
    specific requirements of the 2000 Authorization Act. In addition, we reviewed
    and assessed the compliance status information in the 2000 Plan. We also
    reviewed the 1999 Plan and assessed the information in the 1999 Plan. We
    reviewed the data calls used by the USD(C) to request information from the
    system managers. We attempted to verify that the systems listed as FFMIA
    compliant in the 1999 Plan and the 2000 Plan were compliant with FFMIA
    requirements by reviewing the evaluation and validation methods applied to each
    system. We spoke with representatives from the USD(C), the Military
    Departments, the Defense agencies, and system program offices; collected
    documentation related to the evaluations and validations; and reviewed audit
    results related to the systems identified as compliant.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goals, subordinate performance
    goal, and performance measures.

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)


                                        27
            •   Financial Management Area. Objective: Consolidate finance and
                accounting operations. Goal: Consolidate and standardize financial
                systems. (FM-2.1)

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in the DoD. This report provides coverage
     of the Defense Financial Management high-risk area.

     Use of Computer-Processed Data. We did not rely on computer-processed
     data to perform this audit.

     Audit Type, Dates, and Standards. We performed this financial-related audit
     during the period of April through March 2001 according to auditing standards
     issued by the Comptroller General of the United States, as implemented by the
     Inspector General, DoD. Accordingly, we included tests of management
     controls considered necessary.
     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD. Further details are available on request.


Prior Coverage
General Accounting Office
     General Accounting Office Report No. AIMD-99-44, “Financial Management:
     Analysis of DOD’s First Biennial Financial Management Improvement Plan,”
     January 29, 1999


Inspector General, DoD
     Inspector General, DoD, Report No. 99-123, “Assessment of the DoD Biennial
     Financial Management Improvement Plan,” April 2, 1999




                                        28
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         30
Deputy Chief Financial Officer Comments




                  31
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore G. Guli
Richard B. Bird
Cindi M. Miller
Cheri D. Givan
Mark R. Gott
Ryan N. Pike
Sharon Carvalho
